No. 19-202

In the Supreme Court of the United States
_____________
SOLOMON MCLEMORE,
v.

Petitioner,

CITY OF SHORELINE,
Respondent.
_____________
On Petition for a Writ of Certiorari to the
Washington Supreme Court
_____________
REPLY BRIEF FOR PETITIONER
_____________
Thomas E. Weaver
David C. Iannotti
PO Box 1056
Counsel of Record
Bremerton, WA 98337
STEWART MACNICHOLS
HARMELL, INC. P.S.
(360)792-9345
655 West Smith Street,
tweaver@tomweaverlaw
Suite 210
.com
Kent, WA 98032
(253)859-8840
david@sbmhlaw.com
Counsel for Petitioner

i

TABLE OF CONTENTS
PAGE
TABLE OF CONTENTS ........................................... i
TABLE OF AUTHORITIES .................................... ii
ARGUMENT IN REPLY ......................................... 1
1.

Certiorari is necessary to correct the
holdings of the Washington Courts
concluding that failure to open the door to
one’s home is sufficient to sustain a
conviction
for
obstructing
a
law
enforcement officer. ........................................... 1

2.

There is no factual dispute that would
prevent this Court from granting certiorari.
............................................................................ 6

CONCLUSION ....................................................... 11
APPENDIX
Appendix J Electronic Record Transcription Excerpts
from
the
Trial
Transcription
(September 27-29. 2016) ........... App. 57

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Lucia v. S.E.C., 85 U.S. __, 138 S. Ct. 2044,
2050–51 (2018) ..................................................... 3
State v. Steen. 265 P.3d 901 (Wash. Ct. App.
2011)............................................................. passim
Thompson v. City of Louisville, 362 U.S. 199
(1960) .................................................................... 3

Statutes
Washington Revised Code § RCW 9A.76.020 ......... 4

Constitutional Provisions
U.S. Const. amend IV .............................................. 3

1
ARGUMENT IN REPLY
1. Certiorari is necessary to correct the
holdings of the Washington Courts
concluding that failure to open the door to
one’s home is sufficient to sustain a
conviction
for
obstructing
a
law
enforcement officer.
Solomon
McLemore’s
Petition
clearly
establishes that there is a conflict between
Washington law and federal precedent. The sole
issue in this case is the authority of the officers,
having lawfully entered the home, to arrest the
occupant of the home for passively refusing to
submit to the warrantless entry. The affirmance of
McLemore’s conviction leaves Washington alone as
the only federal or state court that has reviewed this
issue to sustain a conviction for obstructing under
these circumstances. The City of Shoreline’s Brief in
Opposition fails to identify a single court case
outside of Washington, federal or state, that has
affirmed a conviction for obstructing after a
homeowner has passively refused to open his door to
a warrantless entry.
The City argues that the federal precedent cited
in McLemore’s Petition does not apply to this case
because officers have a right and a duty to
investigate potential domestic violence situations
and protect potential victims. Opp., 14. But
McLemore does not dispute, and has never disputed,
the lawfulness of the warrantless entry into his
home for this purpose. The City’s argument,
distinguishing the case law cited by McLemore on
the ground that this case involved a potential

2
domestic violence situation, misapprehends the
force of this Court’s prior holdings and highlights
why it is important for this Court to grant certiorari.
This Court should take this opportunity to clarify
that the case law concluding a person may not be
lawfully arrested for passively resisting a
warrantless entry into his home applies equally to
all warrantless searches of homes.
The split decision of the Washington Supreme
Court in this case also leaves unchanged an earlier
Washington Court of Appeals decision, State v.
Steen. 265 P.3d 901 (Wash. Ct. App. 2011). The
Washington District Court, the King County
Superior Court, the Washington Court of Appeals,
and the Washington Supreme Court, each denied
McLemore’s motion to dismiss, based on Steen,
which is the current state of law in Washington.
App. 1, 43, 54, 47. In Steen, the Washington Court of
Appeals held that a person’s refusal to open the door
to their trailer home and exit, when commanded to
do so by officers lawfully conducting a search
pursuant to their community care function,
amounted to conduct punishable under the
obstruction statute. Steen, 265 P.3d at 908.
The City opines in its Brief in Opposition, and
McLemore agrees, that Steen “upheld a similar
conviction” in a published decision that clearly
carries precedential value, as evidenced by the fact
that all of the lower Courts felt bound by its
authority when they denied McLemore’s appeals.
Opp., 5. The split decision of the Washington
Supreme Court failed to overturn this Washington

3
precedent, which clearly conflicts with federal
precedent.
This Court has the authority to grant certiorari,
as the decision to uphold McLemore’s conviction
conflicts with existing case law and involves an
important federal question as to one’s duty to do
more than passively submit to police during a
warrantless search of their home. This Court
recently granted review where the lower Court was
equally divided. Lucia v. S.E.C., 585 U.S. __, 138 S.
Ct. 2044, 2050–51 (2018). See, also, Thompson v.
City of Louisville, 362 U.S. 199 (1960) (granting
certiorari of the Louisville Police Court decision to
impose a $10 fine even though the decision was not
otherwise appealable under Kentucky law because
the “due process concerns [were] substantial”).
The City also now argues that there is a factual
issue, but all of the decisions to uphold McLemore’s
conviction are based on the conflicting precedent of
Steen. Prior to trial, McLemore moved to dismiss the
charge on the grounds that applying the obstructing
statute in this manner infringed on his Fourth
Amendment Right. App. 4. The Judge denied the
motion, concluding that the charges were
sustainable under Steen. App. 43. There was no
mention of McLemore’s conversation with the other
occupants of the home in the King County order. Id.
The District Court denied the motion, because
McLemore refused to open his door. Id.
After McLemore was found guilty, he appealed
this issue to King County Superior Court. The Court
affirmed the conviction holding that: “The evidence
was sufficient to support a prima facie showing that

4
the Defendant committed the crime of obstructing
pursuant to State v. Steen”. App. 45, 46. Similarly,
there was no mention of McLemore’s conversation
with the other occupants of the home in the King
County Decision on RALJ Appeal. Id. Again, the
Court denied McLemore’s appeal because he refused
to open his door. Id.
McLemore next appealed this issue to The
Washington Court of Appeals. The Court of Appeals
Commissioner denied review, stating:
The trial court and superior court
reasoned that this case is more like State v.
Steen… A person commits obstruction by
willfully hindering, delaying, or obstructing a
law enforcement officer in the discharge of his
or her official powers or duties. RCW
9A.76.020. Steen, 164 Wn. App. at 798. It is
undisputed that Mr. McLemore’s refusal to
open the door was willful. And there was
evidence from which a rational trier of fact
could find beyond a reasonable doubt that he
hindered, delayed or obstructed the officers in
performance of their community caretaking
function. Steen, 164 Wn. App. at 800.
App. 52-54. The Court of Appeals Commissioner
declined to accept review of this case, because
McLemore refused to open his door to the police
during a warrantless search. Id.
The Washington Supreme Court accepted
review of this matter to address whether a
homeowner has an obligation to assist police during

5
a warrantless search and whether it is obstructing
to refuse to assist. Neither opinion issued by the
Washington Supreme Court garnered a majority.
The court split four to four, resulting in the lower
Appellate Court decision being affirmed, upholding
Steen. App. 37-38. Four Justices signed the opinion
overturning Steen, which would bring Washington
case law in alignment with its federal counterpart.
App. 1, 8, 13-16. Four Justices signed the opinion
upholding Steen, holding that it is obstructing for a
homeowner to not unlock their door for the police
during a warrantless search. App. 28, 32, 35-36.
Not only was this the sole issue addressed by
the lower appellate Courts, but it was the issue
argued by the City of Shoreline throughout their
closing argument at trial. The City argued, “He
knew that not complying with the officer commands
to open the door and to come down and talk with
them, would delay their ability to get inside and talk
with occupants inside and to check and make sure
they were okay. He knew that would hinder their
ability to do that investigate [sic].” App. 5, 80-81.
Then during deliberations, the jury inquired of this
very issue asking: “Does a person have the legal
obligation to follow the police instructions, in this
case?” App. 5.
While some of the lower Courts briefly
addressed McLemore’s conduct towards the other
occupant, all of the Court decisions in this case to
uphold his conviction and deny his motion to dismiss
were based on his passive refusal to open the door,
upholding the precedent established in Steen. This
is a significant issue that conflicts with federal

6
precedent and it has been properly preserved for this
Court’s review.
2. There is no factual dispute that would
prevent this Court from granting certiorari.
The City in its Brief in Opposition attempts to
create a factual dispute that has not hitherto
existed. Opp., 11-12. The issue in this case was never
whether McLemore’s statements to the other
occupant1 constituted obstructing. The issue which
McLemore asks this Court to address is not based on
his conduct toward the other occupants of the house,
but on the current state of the law in Washington
which criminalizes the act of passively refusing to
open a door during a warrantless search.
To the extent that McLemore’s statements to
the other occupant may be an issue, they are
addressed here. The attached excerpts from the trial
transcript, in Appendix J, show that McLemore did
not prevent the other occupant from talking to the
police or from opening the door. Nor does it show
that McLemore coached her of forced her to do
anything. App. 57.
McLemore had recorded the interaction with
the police. App. 4, 72. From the entirety of this
recording the City takes issues with three
statements McLemore made to the other occupant of
the home. Opp., 3-4, 11-12. In two of these
statements, McLemore specifically tells the other
person to talk to the police. The officers only

The “other occupant” is used to avoid subjecting her to
unwanted publicity. No disrespect is intended.

1

7
witnessed one of the statements. Deputy Dallon
testified that:
at some point a female comes to the door and
he said tell them you're okay. We had been
telling him we need to make sure that
everyone is okay. We need to know that
everyone is okay because of what is going on
here. So the female at some point comes to the
door and he says, tell them you're okay. The
female said I'm okay. At this point they both
said something like we're scared or something
of that nature. But we tell them, we can't just
take your word for it. You’re telling her to tell
us you're okay isn't enough for us to verify
that you're okay. He could be forcing you to
say this. We have no idea. You're behind a
door and we have no idea what's going on. We
need to investigate.
App. 62. When Deputy Emmons was asked about
the other occupant, he testified:
Well, and I don't remember the exact
timeline. At some point I did see the female at
the top of the stairs. I don't know if that's
when we had a bigger hole in the door or
exactly what was the course. But I talked to
the male first. He walked away. Then we
talked to a female who said that she was fine,
that she didn't need any assistance.
App. 68. Deputy Boyer did not have any contact with
the occupants of the home prior to breaching the

8
door, and did not hear any conversation between
McLemore and the other occupant.2 App. 59.
The second statement the City takes issue with
was that McLemore told the other occupant to go
talk to the police and that she needed to be mad.
App. 72-74. No one testified that this statement was
coercive or threatening and the officers never heard
McLemore make this statement. The City of
Shoreline is now trying to argue that McLemore
interfered with the officers by preventing the other
occupant from talking to the police, by citing two
statements where he specifically told the other
occupant to talk to the police.
The third statement, was that McLemore told the
other occupant that he would go to jail if they opened
the door.3 App. 20 n.2, 74. Nowhere in the entire
In its Brief in Opposition, the City mistakenly claimed for the
first time and inconsistent with the entire record, that the
“deputies repeatedly asked McLemore to let them see the
woman in the apartment, talk to her, and make sure she was
unharmed. McLemore refused, telling them to go away. (Pet
App.21).” Opp., 3. This is not accurate and not supported by the
record. App. 20 n.2, 21, 59, 61-63, 67-68. The City also
mistakenly claimed, for the first time and inconsistent with the
entire record, that “the deputies broke open the door and ran
upstairs to check on [the other occupant] and her baby.” Opp.,
4. Deputy Emmons clearly testified that when they breached
the door, they called the occupants down to them and they
exited the house. App. 70. The other officers testified that they
were not present when the other occupant exited the house.
App. 59, 64. The other occupant also testified that she was at
the door when the officers entered. App. 79.

2

The City of Shoreline also mistakenly claimed that McLemore
told the other occupant that “she” would go to jail if “she”
(continued . . .)

3

9
recording does McLemore threaten the other person,
prevent her from opening the door or prevent her
from talking to the police. Nor does anyone testify
that McLemore did these things. The City takes
issue with the two statements where McLemore tells
the other occupant to talk to the police and the one
saying he will go to jail. Likely there is nothing
McLemore could have said that the City would not
take issue with.
The City is asking this Court to ignore the
entirety of the evidence in order to create an issue
where none existed. Prior to entering the house, the
officers testified that McLemore may have been
coercing the other occupant to say she was okay,
because they did not know what was happening on
the other side of the locked door. App. 20 n.2, 62, 6869. They never testified that it was coercive, only
that it may have been coercive, which was why they
wanted to gain entry into the house. Id. However,
once the officers entered the home and interviewed
all the parties, they learned she was okay and he
was not threatening her or forcing her to do
anything. App. 4. At no point during the officers’
investigation or during any of the testimony in this
case did anyone say McLemore threatened or
coerced the other occupant. Id. The other occupant
also testified in this case and said she was never
threatened or coerced by McLemore. App. 75-78.
opened the door. Opp., 4. At no point does McLemore threaten
the other occupant or tell her she will go to jail if she opens the
door. The only testimony was in regards to a recorded
statement that McLemore made that he would go to jail if they
opened the door. App. 20 n.2, 74.

10
This was just an argument the couple had out on the
balcony so they did not wake up their baby. App. 3.
This Court should not countenance the attempt
by the City at this late date to create a factual
dispute where none has hitherto existed. The City
has consistently argued in the trial court, the King
County Superior Court, the Washington Court of
Appeals, and the Washington Supreme Court that
the crime of obstructing occurred when McLemore
failed to open the door when commanded to do so.
The legal issue in this case has always been whether
a homeowner has any duty to open the door to the
police during a warrantless search. All of the
decisions in this case that have upheld McLemore’s
conviction are based on this undisputed fact and the
conflicting precedent of Steen.

11
CONCLUSION
For the foregoing reasons and those set forth in
the Petition, the Petition for a Writ of Certiorari
should be granted and the decision of the
Washington Supreme Court reversed.
Respectfully submitted,
David C. Iannotti
Counsel of Record
STEWART MACNICHOLS
HARMELL, INC. P.S.
655 West Smith Street,
Suite 210
Kent, WA 98032
(253)859-8840
david@sbmhlaw.com
Thomas E. Weaver
PO Box 1056
Bremerton, WA 98337
(360)792-9345
tweaver@tomweaverlaw.com

Counsel for Petitioner
NOVEMBER 21, 2019

APPENDIX

App. i

APPENDIX
TABLE OF CONTENTS
Appendix J Electronic Record Transcription Excerpts
from
the
Trial
Transcription
(September 27-29. 2016) ........... App. 57

App. 57
________________
APPENDIX J
_________________

IN THE SUPERIOR COURT OF THE STATE
OF WASHINGTON
FOR THE COUNTY OF KING
_____________________
SOLOMON MCLEMORE,
Defendant/Petiioner,

)
) 16-1-07811-3SEA
)
v.
)
)
CITY OF SHORELINE,
)ELECRONIC RECORD
Plaintiff/Respondent. ) TRANSCRIPTION
_____________________
)
THE HONORABLE JUDGE SMITH THE
HONORABLE JUDGE ANDERSON
Attorney for the Petitioner:
Ms. Pimentel
Mr. Kutzner
Attorney for the Respondent:
Ms. Roberts
Ms. McDonald
Lynne Campeau Transcription 1789 SW 345th PL
Federal Way, WA 98023 253-927-6585

App. 58
McLemore, Page 36
(Testimony of Deputy Boyer)
***
A: And I always, whenever I'm talking in quotes I
always like to make sure I am getting it right. So
that's why I was just generalizing at the time.
But what I had written down before was I heard
her say you can't leave me out here and I'm going
to call the police. And then the third one was
something along the lines of I'm reconsidering
our relationship.
Q: And how would you describe the tone of that voice
and perhaps the - how loud that voice was?
A: It was very loud. It was like about 1:30 in the
morning. There were no other noises coming from
down that street. There's a bar across the street,
but I think that was closing. I didn't hear
anything from there.
Q: There was no other noises in the area. And it was
very distinct and very loud. There was a, I think,
a townhouse unit just south of there. Definitely
probably the neighbors started hearing that
(inaudible) (inaudible).
A: And could you tell the demeanor of that particular
person based upon how you were hearing her
voice?
A: She sounded in duress, upset. Yeah, it was very
loud yelling.

App. 59
***
McLemore, Page 43 (Deputy Boyer)
***
Q: And did you ever get any response from inside
the house?
A: I was on the back side. I could hear the yelling.
What I understood was that Dispatch had a line
inside of someone talking on the phone. But I
wasn't on the phone so I didn't hear any distinct
stuff. I heard them yelling through the door, but
that's - I couldn't understand what was being
said as I was on the back side of the property.
McLemore, Page 44 (Deputy Boyer)
***
Q: When eventually you did come upstairs, did you
have any contact with any of the occupants of the
home?
A: The gentleman was being taken out to the car and
I was still back at my car. I had - someone
brought the female out to my car with me and I
spoke to her at my car.
***

App. 60
McLemore, Page 59
(Testimony of Deputy Dallon)
***
Q: All right. When you arrived on scene and you said
you were able to locate where the argument was
coming from, the apartment the argument was
coming from, where did you go?
A: So initially we all came back here and could hear
arguing. And then I remember everything that
was said, but things along the lines of - I could
hear the female saying I'm going to call 911, or I
want to call 911 or the police, something to that
extent. And so we decided we were going to go
knock on the front door to try and get them to
come to the door so we could see what was going
on.
***
McLemore, Page 64 (Deputy Dallon)
***
Q: How long were you there before you ever got a
response?
McLemore, Page 65 (Deputy Dallon)
A: I mean I'd have to guess six to ten minutes.
When we started getting responses Deputy
Emmons tried to kick the door, but we realized it
was -kick the door in, but the door opened out. So
it was not going to work. So I had a little pickaxe

App. 61
in my car. We had asked the fire department to
come with breaching tools, but because we were
very concerned with what was going on in the
home I started trying to break the lock off the
door to get in. And as I was doing that, that is
when I finally made contact with the male
through the door.
Q: Describe that contact.
A: The conversation was a little bit repetitive. We're
the police, you need to let us in. The male kept
saying I don't have to let you in. I don't know who
you are, things of that nature. At this point
Deputy Emmons is at the door with me. And
we're telling him, you need to let us in. You can
call the police, 911. They'll tell you that we're the
police, let us in.
Q: Were you dressed - how were you dressed?
A: I was dressed just like this.
***
McLemore, Page 66 (Deputy Dallon)
***
Q: But anyways, you announced yourself and
verbally told this individual that you were the
police?
A: Yes.
Q: And could you hear him through the door?

App. 62
A: Yes.
Q: And could you tell if he could hear you through
the door?
A: He was responding to what we were saying.
Q: At any point did he open the door? Was the door
cracked or was it still shut?
A: It was still shut.
Q: Describe kind of an ongoing conversation with
him or anything that you were hearing the
defendant saying through that door.
A: So as we continued kind of in this repetitive loop
of conversation, at some point a female comes to
the door and he said tell them you're okay. We
had been telling him we need to make sure that
everyone is okay. We need to know that everyone
is okay because of what is going on here. So the
female at some point comes to the door and he
says, tell them you're (cont.)
McLemore, Page 67 (Deputy Dallon)
A: (cont.) okay. The female said I'm okay. At this
point they both said something like we're scared
or something of that nature. But we tell them, we
can't just take your word for it. You’re telling her
to tell us you're okay isn't enough for us to verify
that you're okay. He could be forcing you to say
this. We have no idea. You're behind a door and
we have no idea what's going on. We need to
investigate.

App. 63
***
McLemore, Page 68 (Deputy Dallon)
***
Q: When you told the defendant to open the door,
what did he say in response to you?
A: Things like I don't have to. You know, police,
you're violating my rights, things of that nature.
McLemore, Page 69 (Deputy Dallon)
***
Q: And what did you do once the door got opened?
A: I saw Solomon. We took Solomon. We detained he was identified as Solomon McLemore. We took
custody of him at that point and I escorted him
over to my police car while the other deputies
went to check the apartment and to deal with the
female.
Q: And when you came in and contacted Mr.
McLemore - is Mr. McLemore in the courtroom
today, actually?
A: Yes.
Q: Okay. Can you describe something he's wearing
for the jury? Purple button up shirt.
A: And when the door was eventually breached,
where was he standing?

App. 64
A: I wasn't the one who put handcuffs on him so l
didn't see exactly. But he was in the doorway
because they almost instantly hand hands on
him. He had to be pretty close to the doorway.
Q: Close enough to be able to open it from the inside?
A: Yes.
Q: And could you see immediately where the female
half was?
McLemore, Page 70 (Deputy Dallon)
A: I don't recall.
Q: From your vantage point there could you see if
there was anybody else in the (inaudible) room?
A: I didn't note that there was.
***

App. 65
McLemore, Page 96
(Testimony of Deputy Emmons)
***
A: I did. At first I was kind of confused because I
figured the disturbance would be happening to
the north side because there were apartments
there. I wasn't aware that there was an
apartment complex there at the drycleaners. And
so we walked that direction and we could hear
the sound of a female yelling. I could hear a
muted male in the background and we just tried
to ascertain exactly where it was coming from. It
was a dark night, kind of misty. Things were a
little bit echoing.
Q: Okay. The female's voice was much clearer than
the male's voice?
A: Correct.
Q: Could you hear what the female was saying, if
anything?
A: I did. I noted it exactly in my report what I believe
I heard. But she said that she wanted to call 911,
she wanted out of the relationship and she
wanted to leave.
***

App. 66
McLemore, Page 103 (Deputy Emmons)
***
Q: Okay. All right. So did those additional tools
eventually arrive?
A: They did. I don't remember the exact set of
circumstances. But I know that Deputy Dallon
was at the door with a hatchet and I do remember
that (cont.)
McLemore, Page 104 (Deputy Emmons)
(cont.) Mr. McLemore came down to the door and
we had a conversation through a little hole in the
door, which is kind of eerie. It was odd.
Q: That was going to be my next question. When you
started to make any attempts to get through the
door did you ever have any contact with the male
voice on the other side?
A: Yes, absolutely.
Q: And so describe that contact and the nature of
the conversation.
A: So we're hacking away at the door. And during
this whole timeframe, by the way, when we're
hailing on the PA system on the outside, I
intentionally key up my radio so I can hear things
going on. So there's recorded sounds of what's
going on over this period of time. So when I'm
yelling over the PA earlier while I was in the
vehicle, we keyed up a couple of times so you

App. 67
could hear the PA in the background. When
we're at the door hacking away and making a
large amount of noise I key up a couple of times
so I can hear what's going on. At that point I saw
a male approach me and he says a couple things
to me and we have a back and forth. And the
biggest thing I want him to do is open the door
and come out. I don't need to destroy the door if
I don't need to do so. He refuses to come out.
Q: Okay. So at one point the male on the other side
of the door approaches the door?
A: Absolutely.
Q: What does he ask you or say to you?
McLemore, Page 105 (Deputy Emmons)
A: He tells me to go away and says I'm violating his
civil rights, that I have no right to come inside. I
inform him that was not correct. I do have the
right to come inside. I told him why we were
doing so.
Q: And what did you tell him in terms of why?
A: I told him we fear about the people's safety inside.
If everybody comes to the door and opens the door
and get inside and talk to people, then we can
sort things out that way. If he doesn't, we will
continue doing as we're doing and we will come
inside.
Q: Okay. And did he comply with your commands to
come outside?

App. 68
A: He did not. He did not.
Q: Did he comply with your command to open the
door?
A: He did not.
Q: Did he make any statements to you that led you
to believe that he was not going to do either one
of those?
A: Yes. He said that he was going to sue us and he
walked away. And I don't remember if I knew
there were stairs then, but he walked away from
viewpoint and that small little hole we had in the
door.
Q: So you were able to have some visual inside the
apartment to see at least him?
A: Correct.
Q: Could you see the rest of the apartment to see if
there were any other injured individuals or the
female? Did you ever see her?
McLemore, Page 106 (Deputy Emmons)
A: No. Well, and I don't remember the exact
timeline. At some point I did see the female at
the top of the stairs. I don't know if that's when
we had a bigger hole in the door or exactly what
was the course. But I talked to the male first. He
walked away. Then we talked to a female who
said that she was fine, that she didn't need any
assistance.

App. 69
Q: Okay. Did you know if there was anyone else in
the apartment?
A: No. And that doesn't pacify me at that point
either. Things are ongoing...
Q: Why not?
A: Because people, when they're scared or they're
under threats of harm, they're going to lie and
not tell us the truth because they want
everything else to be safe inside. So I just cannot
trust things on eyesight or hear sight. We need to
still make entry into that apartment and make
sure that everybody was safe.
Q: Okay. At that point did you know that there was
an infant child?
A: You know, I don't remember if there was a child
in her arms or if we discovered that after the fact.
I just don't recall off the top of my head. It may
be in my report.
Q: Okay. All right. Could you see the entire
apartment or just the stairwell?
A: No. When we had a bigger hole in the door I could
see the stairwell going up.
Q: And that's it?
A: Correct.
Q: None of the other rooms of the apartment or
anything of that nature?

App. 70
McLemore, Page 107 (Deputy Emmons)
A: No.
Q: Okay. Did you ever hear the male give commands
to the female half regarding if she should talk to
the police or what she should say?
A: I know that was back and forth between the two.
I don't remember exactly what was said.
Q: Were you able to eventually make entry into the
residence?
A: Yes. The fire department was able to bring some
breaching tools. At that point we were still very
exposed and we had the discussion with
somebody inside. Time is of the essence. So we
were finally able to breach that door and pull it
open. At that point we called them down to us. I
popped the door open. I was off to the left. I went
to the right so I could have cover of the brick wall.
Everyone else kind of spread out. I forget who
came out first. I know I contacted the female,
brought her out, patted her down and asked her
what was going on.
Q: Okay. So you were primarily contacting her?
A: Correct. I took her out to my car which was
around the back side. The male and female were
together and I wanted to separate the two, of
course, because people, when they're in the
company of each other, don't tell the truth or feel
that they cannot tell the truth. So we always
separate them quickly. I brought her out to my

App. 71
car where it was nice and quiet and asked her
what was going on. And I still don't know if she's
a suspect or victim at this point. So I did frisk her
to make sure she didn't have any weapons. And
then we sat down and chitchatted really quick.
***

App. 72
McLemore, Page 175
(Testimony of Solomon McLemore)
***
(Video is played for the jury)
Q: Now after hearing that, you tell her to go talk to
them.
A: Yeah.
Q: And then under your breath, you need to go talk
to them now and you need to be fing mad.
A: Yeah. If it's under my breath, I don't...
Q: Did you hear that? Should I play it again?
A: Yeah. No. Like you said, under my breath, but
definitely no one could hear that.
Q: But you were still commanding her on how to talk
to the police, correct?
A: No. I just needed to voice the opinion that she
needed to be upset. This is very serious.
Q: So you were telling her how to act with the police,
correct?
A: I'm catching her up to speed because she wasn't
down there.
Q: You were telling her how to act with the police,
correct?

App. 73
A: I was giving her my opinion.
Q: Okay. And you were telling her how to act with
the police that she needed to be upset, correct?
A: I don't believe I was. I don't.
Q: Okay.
A: If it was that quiet, then I don't get how the police
could have heard it.
McLemore, Page 176 (McLemore)
Q: All right. They certainly heard the first one when
you said she needed to talk to the police though?
A: Okay.
Q: So you told her that twice?
A: To talk to the police?
Q: Once loud enough for the police to be there and
once under your breath, telling her...
A: Yeah...
Q: …that she better talk to the police. I'll back that
up just a bit.
A: But what you're saying is that I told her to talk to
the police.
(Recording is played for the jury)
Q: Right here.

App. 74
A: I didn't swear. I didn't tell her she needed to be
fucking mad.
Q: And right there did you tell her if you go outside
that you're going to jail?
A: Yeah, that was my opinion.
***

App. 75
McLemore, Page 188
(Testimony of Lisa)1
***
A: Basically the argument kind of had fizzled out at
that point. It was late and I decided I wanted to
go to bed. I was like okay, it's done. I'm over it.
I'm tired. I hadn't slept much because of the
baby. I'm not sure how long after that, but not
long after that is when I started hearing the
doorbell just bing, bing, bing, bing, bing, bing,
and then pounding.
Q: Okay.
A: And you know it was early hours in the morning
and I think at first I really didn't know what was
going on. And then it was shortly after all the
banging and dinging, we didn't really know what
was going on, and then we hear like a
loudspeaker or some kind of a microphone or
something, someone telling us to, excuse my
language, but open the fucking door.
Q: Okay.
A: And I think at that point I started getting
concerned, worried, and it had actually woken up
my son. So I think I actually had gone in to get
my baby.

1

Out of respect to the other occupant, she is listed here as Lisa.

App. 76
McLemore, Page 189 (Lisa Testimony)
Q: Okay. And then so at that time you made - there
was no contact with the police then?
A: As far as me talking? Us talking to them?
Q: Yeah.
A: No. There was no - no, we didn't speak to them at
all at that point.
Q: Did you ever talk to the police?
A: I did talk to the police at one point. Well, at two
points. One time when I was inside the house
from the stairs.
Q: Okay.
A: And at that point I said something - at first I was
like frozen. I didn't really know. I was scared and
in disbelief at what was even transpiring.
Q: Okay.
A: I was having a hard time coming to terms so I was
having a hard time saying anything. I just kind
of sat on the couch like is this even real? This isn't
even happening. And then at one point I think I
had told the police you're scaring me. You're
scaring my son. You guys need to leave. You
know? This is between hearing them trying to
break our front door down and I didn't think they
had any reason to even be doing that in the first
place, you know? I was very scared.

App. 77
Q: Okay. Did your fear and anxiety ever stem from
your interactions with Mr. McLemore?
A: No. No.
McLemore, Page 190(Lisa Testimony)
Q: When you got off the couch and you came to the
stairwell where Mr. McLemore was talking to the
police through the door, were you fearful of
anything Mr. McLemore ever said to you?
A: No, no.
Q: Were you fearful of any of his actions?
A: No.
Q: Did you ever feel any type of fear or anxiety from
anything stemming from Mr. McLemore?
A: No, not at all.
Q: Okay. Could you please tell me a little bit more
about how the interaction with the police made
you feel?
A: It was probably the most terrifying experience
that I've ever had as far as the whole way-the
way they talked to us from the beginning, it was
hard for me to believe that it was the police
because I didn't believe that was conduct
becoming of a police officer to say open your
fucking door.

App. 78
MS. MCDONALD: Your Honor, I'm going to object
as the opinion evidence at this juncture and to
the relevance.
JUDGE ANDERSON: Overruled and overruled.
A: And so I just didn't think the conduct, how they
approached us, was for our wellbeing. I thought I was scared. I was scared for my safety, my son's
safety, and my family's safety at that point. Once
we had the interaction downstairs as far as you
guys need to leave, I remember I was standing
close to the mid to the bottom of the stairs and
the next thing I knew I had (cont.)
McLemore, Page 191 (Lisa Testimony)
A: (cont.) woodchips flying at me, hitting me in the
face and the neck, and then I don't remember
what point I started screaming, but I remember
I looked and the police had their guns drawn.
Q: Okay.
A: It was just very, very scary.
Q: And so the - I'm sorry if you need a moment.
A: No, I'm okay.
Q: Okay. So they eventually breached the door,
correct?
A: Correct.
Q: And then what happened after that?

App. 79
A: So after they breached the door they pulled me
and him out separately. They took me to a police
car that was kind of behind my house, but more
by the lumberyard gate and then sat me down. I
believe at that point is when I - I don't know what
I had to said to them, but they asked me
questions about if he had hurt me.
Q: Okay.
A: And you know I indicated no, there had been no
violence at all.
Q: Okay. At any point were you put in the back of a
police officer's car?
A: They sat me down in the back of a car, yes.
Q: Did they put you in handcuffs?
A: No.
Q: Were you arrested?
A: No.
***

App. 80
McLemore, Page 205
(Closing Argument of the City of Shoreline)
***
And that's all imparted to the defendant and the
defendant acknowledged in his own testimony that
he heard all of that and that he acknowledged all of
that. But he heard the officer use one swear word
and that was it for him. He wasn't going to do
anything. He wasn't going to follow a command. He
wasn't going to listen to them. He wasn't going to do
anything that the officers were telling him to do. He
dug his heels in. He acted willfully with the
knowledge of what they were trying to accomplish.
In his statements to the officers, you're not coming
in. We're not letting you in. You need to go away. He
acted willfully.
And the definition that you have in your instructions
of willfully, it means to purposely act with the
knowledge that his actions will hinder, delay or
obstruct a law enforcement officer in the discharge
of their official duties. He knew that not complying
with the officer commands to open the door or to
come down and talk with them, would delay their
(cont.)

App. 81
McLemore, Page 206 (Closing Argument)
(cont.) ability to get inside and talk with occupants
inside and to check and make sure they were okay.
He knew that that would hinder their ability to do
that investigate. He knew that it would delay that
investigation.
***
McLemore, Page 210 (Closing Argument)
***
Any act or any inaction of the defendant, meaning a
failure to comply with a command or something
along those lines- anything that hinders an officer's
ability to perform their duty is the crime of
obstructing a law enforcement officer. Anything that
delays their ability to complete their investigation
constitutes the crime of obstructing a law
enforcement officer. Anything that obstructs their
ability to perform their duties is obstructing a law
enforcement officer.
Look at this in the totality. All of the facts put
together, all of the surrounding circumstances. The
defendant's demeanor, the situation he's in, his
interaction with the police, his refusal to comply
with their commands, the length of time that his
interaction with the police delayed their ability to do
that, to ensure that everyone was all right
constitutes the crime of obstructing a law
enforcement officer And I would ask that you would
find that the City has proven each one of these

App. 82
elements beyond a reasonable doubt and find the
defendant guilty of obstructing a law enforcement
officer.
JUDGE ANDERSON: Thank you. Please draw
your attention to Mr. Kutzner on behalf of the
defense.
***

App. 83
McLemore, Page 227
I, Lynne Campeau, certify under penalty of perjury,
of the laws of the State of Washington, that the
following is true and correct to the best of my skill
and ability.

DATED this 7th day of February, 2017 in Federal
Way, Washington.

Lynne Campeau

